W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1177

National Medical Imaging, LLC, et al.

U.S Bank, N.A., et al.

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
U.S. Bank, N.A.; Lyon Financial Services, Inc., d/b/a U.S. Bank Portfolio Services; DVI Receivables XIV,
LLC; DVI Receivables XVI, LLC; DVI Receivables XVII, LLC; DVI Receivables XVIII, LLC; DVI Receivables
XIX, LLC; Jane Fox

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Danielle Spinelli

Date:

3/1/21

Digitally signed by Danielle Spinelli
Date: 2021.03.01 10:43:27 -05'00'

(Type or print) Name Danielle Spinelli
Mr.

Ms.

Mrs.

Firm

Wilmer Cutler Pickering Hale and Dorr LLP

Address

1875 Pennsylvania Ave. N.W.

City & State

Washington, DC

Phone

202-663-6000

Miss

Zip 20006
Email

danielle.spinelli@wilmerhale.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Erwin Chemerinsky
University of California, Berkeley School of Law
echemerinsky@law.berkeley.edu

